Department of Homeland Security
   Ofﬁce of Inspector General
    Allegations of Misconduct within the Coast Guard 

           Administrative Law Judge Program 


                                             (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Federal of Information Act will be conducted upon request.




OIG-10-108                                                                                    August 2010
                                                                   Office ofInspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 20528




                                                    "~'            Homeland
                                                  ~.(~h'I)   s!5   Security
                      AUG 2 5 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses certain allegations made against the United States Coast Guard's
Administrative Law Judge program, including but not limited to allegations that the
program is biased in favor of the Coast Guard and that the Chief Administrative Law
Judge either controls or attempts to control the outcome of cases decided by his
subordinate judges. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                    ~~~
                                        Richard L. Skinner
                                        Inspector General
Table of Contents
Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


     History and Formation of the Coast Guard’s Administrative Law Judge Program.......2 

     Organization of the Program..........................................................................................3 

     ALJ Massey’s Allegations .............................................................................................5 


Results of Review ................................................................................................................6 


     We Could Not Substantiate ALJ Massey’s Allegations ...............................................7 

     The Chief ALJ Instructed ALJ Massey to Follow Regulations...................................22 

     ALJ Massey’s Conduct Undermined the Gravity of the Allegations .........................28 


Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................34 

     Appendix B: Management Comments to the Draft Report .......................................36 

     Appendix C: Chronology of Relevant Events ...........................................................37 

     Appendix D: 

     Appendix E: Major Contributors to this Report........................................................52 

     Appendix F: Report Distribution ..............................................................................53 


Abbreviations
     ABA                   American Bar Association
     ALJ                   Administrative Law Judge
     ALJIPP(s)             Administrative Law Judge Internal Procedure(s) and Practice(s)
     APA                   Administrative Procedure Act
     CDOA(s)               Commandant Decision(s) on Appeal
     DEA                   Drug Enforcement Agency
     DHS                   Department of Homeland Security
     FERC                  Federal Energy Regulatory Commission
     FOUO                  For Official Use Only
     LMI                   Office of Maritime and International Law
     MSPB                  Merit Systems Protection Board
     MSU                   Marine Safety Unit
     NOAA                  National Oceanic and Atmospheric Administration
     NTSB                  National Transportation Safety Board
     OIG                   Office of Inspector General
     OPM                   Office of Personnel Management
     S&R                   Suspension & Revocation
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                     On May 9, 2007, a retired United States Coast Guard (USCG)
                     Administrative Law Judge (ALJ), Jeffie J. Massey, filed an
                     affidavit in support of the plaintiff in Dresser vs. Ingolia et al.,
                     Civil Action No. 07-1497 (Eastern District, Louisiana). In her
                     affidavit, and when later testifying before Congress, ALJ Massey
                     made several allegations of bias within the Coast Guard’s ALJ
                     program. ALJ Massey said that the Chief ALJ, Joseph N. Ingolia,
                     specifically told her to always rule in the Coast Guard’s favor. She
                     also inferred from other alleged remarks made by him and another
                     Coast Guard ALJ that the Chief ALJ had directed that ALJ to rule
                     in favor of the Coast Guard. ALJ Massey also alleged that the
                     Chief ALJ and others engaged in improper conversations regarding
                     pending cases.

                     The allegations have brought the integrity of the entire ALJ
                     program into question. Congress introduced legislation to transfer
                     suspension and revocation hearings to the National Transportation
                     Safety Board, and respondents appearing before the Coast Guard’s
                     ALJs have questioned the independence of its ALJs. At the
                     request of the Vice-Commandant for the Coast Guard, we initiated
                     a review to determine the merits of ALJ Massey’s allegations.

                     We were not able to substantiate ALJ Massey’s allegations. We
                     did not determine that the Chief ALJ and others made the alleged
                     remarks, or that the remarks, if made, meant that the Chief ALJ
                     and others engaged in misconduct by directing subordinate ALJs to
                     rule in favor of the Coast Guard. There is no evidence supporting
                     ALJ Massey’s claim that the Chief ALJ held improper
                     conversations with other ALJs about desired outcomes in specific
                     cases or otherwise deprived mariners of due process in
                     administrative proceedings. We did determine that the Chief ALJ
                     instructed ALJ Massey to follow regulations because she was not
                     following regulations. ALJ Massey’s conduct in disclosing the
                     allegations also reinforced our conclusions and led us to doubt her
                     claims. The Coast Guard declined to provide formal comments in
                     response to our draft report.




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 1

Background
          History and Formation of the Coast Guard’s Administrative Law
          Judge Program
                  One of the primary duties of the Coast Guard is to enforce or assist in the
                  enforcement of all federal laws applicable to high seas and waters subject
                  to the jurisdiction of the United States. Another duty is to administer laws
                  and promulgate and enforce regulations for the promotion of safety of life
                  and property on the high seas and waters subject to the jurisdiction of the
                  United States covering all matters not specifically delegated by law to
                  some other executive department.

                  The Administrative Procedure Act (APA) (5 U.S.C. § 551 et seq.), enacted
                  in 1946 to create uniformity among the various federal agencies, created
                  comprehensive statutes for rulemaking and administrative adjudications.
                  With respect to adjudications, the APA requires that an impartial and
                  independent fact finder, such as an ALJ, presides over certain hearings.
                  To ensure parties receive fair hearings, the APA prohibits an ALJ from
                  being “responsible to or subject to the supervision or direction of an
                  employee. . . engaged in the performance of investigative or prosecuting
                  functions for an agency.” 1 The APA prohibits “[a]n employee engaged in
                  the performance of investigative or prosecuting functions for an agency in
                  a case may not, in that or a factually related case, participate or advise in
                  the decision, recommended decision, or agency review . . . .” 2

                  Typically, Coast Guard administrative proceedings focus on two
                  regulatory schemes to maintain safety in maritime operations: (1)
                  suspension and revocation (S&R) of merchant mariners’ credentials (46
                  U.S.C. Chapter 77); and (2) assessment of class II civil penalties (CII) in
                  accordance with provisions of the Federal Water Pollution Control Act (33
                  U.S.C. § 1321(b)(6)) and the Comprehensive Environmental Response,
                  Compensation, and Liability Act (42 U.S.C. § 9609(b)). The S&R
                  regulations are intended to be straightforward and easy to understand so
                  that neither the Coast Guard nor the respondent needs legal representation
                  in order to successfully resolve the dispute. The S&R proceedings are also
                  intended to achieve a remedial, not a punitive result, of maintaining the
                  safety of waterways. They are not necessarily to discipline errant mariners.
                  Historically, S&R and class II civil penalty hearings represent only a very
                  small portion of the Coast Guard’s mission-related activities.


1
    5 U.S.C. § 554(d)(2)
2
    5 U.S.C. § 554(d)



             Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                  Page 2

      Pursuant to the APA and Coast Guard regulations, the Chief ALJ assigns
      ALJs to preside over administrative proceedings. An ALJ must be an
      impartial finder of fact, free from the influence of the Coast Guard or any
      other person or entity when hearing and deciding Coast Guard cases. The
      respondent must be given notice of the charges against him or her and the
      opportunity to rebut those charges in a hearing before an impartial ALJ.
      When the administrative proceeding is concluded, the ALJ renders a
      decision that becomes the decision of the agency unless the decision is
      appealed to, or upon motion of, the agency. Either party may appeal the
      ALJ’s decision by filing a notice of appeal with the ALJ program within
      30 days after the issuance of the decision and subsequently filing an
      appellate brief with the Coast Guard’s Commandant within 60 days of the
      issuance of the decision.

      The Coast Guard’s Office of Maritime and International Law (LMI)
      handles the appeals of an ALJ’s initial decision to the Commandant. Its
      staff reviews the record of the proceedings and the appellate briefs and
      drafts the Commandant’s Decision on Appeal (CDOA) for review and
      signature by the Vice Commandant. The Vice Commandant signs
      CDOAs on the Commandant’s behalf.

      Even when an ALJ’s decision has not been appealed by the respondent,
      the Commandant can review it when there is a finding that the charge was
      proved. When the respondent disagrees with the Commandant’s decision,
      he or she may appeal the Commandant’s decision to the National
      Transportation Safety Board (NTSB). The respondent may appeal the
      NTSB’s decision to an appropriate federal court of appeal.

      ALJs have a unique status because they remain independent of their
      associated agency. Specifically, an ALJ’s income is not subject to the
      agency’s performance evaluation, and an ALJ is not subject to managerial
      controls by the agency. In addition to hearing Coast Guard administrative
      cases, Coast Guard ALJs preside over cases from the Department of
      Commerce’s Bureau of Industry and Security and the National Oceanic
      and Atmospheric Administration (NOAA). They are also responsible for
      administrative cases arising from the Department of Homeland Security’s
      (DHS) Transportation Security Administration.

Organization of the Program
      The Coast Guard became a component of DHS in 2003. The Coast Guard
      Commandant reports directly to the Secretary of DHS. The Commandant
      leads the Coast Guard and is responsible for its policy and administration.
      However, the Commandant has delegated to the Vice Commandant the



 Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                      Page 3

                   authority to take final agency action in S&R proceedings, except for
                   petitions or appeals in a case where an ALJ ordered revocation of a
                   merchant mariner’s credentials.

                   The Commandant appoints the Chief ALJ. The Chief ALJ serves as the
                   head of the ALJ program and is responsible for overseeing the ALJ
                   program as well as hiring, supervising, and managing the ALJ program
                   staff. Among other things, the Chief ALJ is responsible for the training of
                   new ALJs assigned to conduct S&R hearings.

                   Because ALJs are independent fact finders, they do not report to any
                   particular individual or have a traditional chain of command. However,
                   the Chief ALJ assigns ALJs to preside over particular administrative
                   proceedings upon receipt of a complaint and has the authority to review
                   ALJs’ decisions and orders. Coast Guard ALJs have all powers necessary
                   to conduct fair, fast, and impartial hearings including the authority to:

                         (1)	 administer oaths and affirmations;
                         (2)	 issue subpoenas authorized by law;
                         (3)	 rule on motions;
                         (4)	 order discovery as provided for in 33 C.F.R. Part 20;
                         (5)	 hold hearings or settlement conferences;
                         (6)	 regulate the course of hearings;
                         (7)	 call and question witnesses;
                         (8)	 issue decisions;
                         (9)	 exclude any person from a hearing or conference for disrespect,
                              or disorderly or rebellious conduct; and
                         (10) institute policy authorized by the Chief Judge. 3

                   The ALJ program is a small unit that typically employs less than 30
                   people. Since its inception in 1948, the ALJ program has had three Chief
                   ALJs. In 1991, the Coast Guard hired its current Chief ALJ, Joseph N.
                   Ingolia. The Chief ALJ is the ALJ program’s chief executive. The Chief
                   ALJ’s senior staff includes the Director of Judicial Administration, the
                   Senior Attorney Advisor and the Attorney Advisor/Senior Law Clerk.
                   The Chief ALJ delegates many of his administrative duties to his senior
                   staff, giving them primary responsibility for the day-to-day management
                   of the ALJ Program. As a result, the Chief ALJ’s senior staff is
                   responsible for training the field ALJs, providing ALJs with legal
                   assistance and advice, and managing the ALJ program’s more junior staff.
                   Currently, the ALJ program operates ALJ field offices in Alameda, CA,
                   Houston, TX, New Orleans, LA, New York, NY, and Seattle, WA. One


3
    33 C.F.R. § 20.202



              Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                   Page 4

      ALJ is assigned to Baltimore, MD. Each ALJ field office typically
      employs one ALJ and one paralegal specialist.

      The ALJ program’s docketing center in Baltimore, MD functions as the
      program’s headquarters. Created in 1997, the docketing center manages
      all filings associated with Coast Guard administrative proceedings by
      storing case files and records, maintaining a system for tracking and
      monitoring files, assisting parties in filing documents, and answering
      inquiries from the public. The docketing center has attorneys on staff who
      can assist ALJs with legal research or program rules of practice or policy.
      Although the docketing center does not provide formal training, it
      provides ALJs with an initial orientation and continuing legal education
      conferences. Since 1999, the docketing center has assigned uncontested
      cases to ALJs on a rotational basis. The docketing center generally
      assigns contested cases to the ALJ with responsibility for the geographic
      area where the Coast Guard filed the complaint.

ALJ Massey’s Allegations
      On May 9, 2007, retired Administrative Law Judge (ALJ) Jeffie J. Massey
      filed an affidavit in support of the plaintiff in Dresser vs. Ingolia et al.,
      Civil Action No. 07-1497 (Eastern District, Louisiana). In this case,
      Mr. Dresser alleged that the defendants, who at the time of the alleged
      events were employees in the Coast Guard ALJ program, violated his
      constitutional right to due process by trying to predetermine the outcome
      of proceedings with respect to his mariner’s credentials. In her affidavit,
      ALJ Massey made several allegations regarding the ALJ program. First,
      ALJ Massey alleged that at a lunch on December 7, 2004, ALJ Brudzinski
      remarked about one of his cases, “If I ruled that way, the Chief Judge
      would have my job” and that based on his statements, ALJ Brudzinski was
      not an independent fact finder and the Chief ALJ told him how to rule in
      the Dresser case. Second, ALJ Massey said that during an April 8, 2005,
      meeting with the Chief ALJ, the Chief ALJ specifically told her that she
      should always rule for the Coast Guard. ALJ Massey also alleged that the
      Chief ALJ and others engaged in improper conversations regarding
      pending cases.

      ALJ Massey did not disclose the alleged misconduct for nearly two years
      after the events occurred and just two weeks after she retired from the
      Coast Guard. ALJ Massey raised concerns of growing tension between
      her and Coast Guard investigating officers to the Chief ALJ and
      mentioned in an April 4, 2005, memorandum to the Chief ALJ that she felt
      she was being pressured to rule in favor of the Coast Guard. However, she
      first publicly reported her allegations to a mariner’s attorney who regularly



 Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                      Page 5

           appeared before her while she was a Coast Guard ALJ. The attorney used
           her statements in a lawsuit against Coast Guard employees.

           The allegations have had serious repercussions for the ALJ program.
           Beginning on June 24, 2007, the Baltimore Sun published a series of
           articles about the ALJ program. In response, on July 31, 2007, the House
           Transportation and Infrastructure Committee’s Subcommittee on the Coast
           Guard and Maritime Transportation held a hearing to explore these
           allegations. ALJ Massey testified at the hearing along with
           representatives of the Coast Guard. Neither the Chief ALJ nor any other
           member of the ALJ program with first-hand knowledge of the facts
           underlying ALJ Massey’s allegations testified at the hearing. The
           subcommittee subsequently introduced legislation that, had it become law,
           would have transferred S&R proceedings and much of the ALJ program
           budget to the NTSB. As a result of these events, respondents scheduled to
           appear before Coast Guard ALJs have questioned the integrity of the ALJ
           program and its ALJs’ independence.

Results of Review
           In October 2008, the Coast Guard requested that we investigate ALJ
           Massey’s allegations, which challenged the fundamental fairness of the
           Coast Guard’s ALJ program. In January 2009, we initiated a review to
           determine whether the Chief ALJ directed subordinate ALJs to rule in
           favor of the Coast Guard and discussed desired outcomes in specific cases
           with other ALJs and other employees.

           We were not able to substantiate ALJ Massey’s allegations. Although
           ALJ Massey referred to other events as evidence of wrongdoing by the
           Chief ALJ, her allegations hinged primarily on her interpretation of two
           alleged remarks made in her presence. We did not determine that the
           Chief ALJ and others made the alleged remarks, or that the remarks, if
           made, meant that the Chief ALJ and others engaged in misconduct by
           directing subordinate ALJs to rule in favor of the Coast Guard. There is
           no evidence supporting ALJ Massey’s claim except her own statements
           that the Chief ALJ held improper conversations with other ALJs about
           desired outcomes in specific cases. Given the protections afforded ALJs
           from improper adverse employment actions, as well as the construct of the
           Coast Guard ALJ program, neither the Chief ALJ nor the Commandant
           can remove a sitting ALJ without an MSPB proceeding. We did not
           identify any specific effect resulting from the Chief ALJ’s alleged
           pressuring of ALJs to rule for the Coast Guard.




      Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                           Page 6

      We did determine that the Chief ALJ was justified in instructing ALJ
      Massey to follow regulations because she was not following regulations.
      ALJ Massey and the Coast Guard interpreted the APA’s guarantee of
      judicial independence differently, which caused a divide between ALJ
      Massey and the Coast Guard regarding the proper role of an ALJ in an
      S&R proceeding. Specifically, the Administrative Procedures Act
      safeguards an ALJ’s decisional independence, that is, the authority to
      determine the facts based on the record, and to apply the law to those
      facts. However, the APA does not grant an ALJ the authority to ignore an
      agency’s rules, regulations, policies, or interpretations of law. The
      Commandant issues statements of policy and interpretations of law via
      CDOAs, which are binding precedent that ALJs must follow. ALJ
      Massey repeatedly ruled in contravention of Coast Guard regulations and
      did not follow at least one CDOA.

      As a result, ALJ Massey’s brief employment at the Coast Guard was rife
      with conflict. We noted a pattern of growing tension and distrust between
      ALJ Massey and most of the Coast Guard employees with whom she
      interacted, including the Chief ALJ, several members of the ALJ program
      staff, and the Coast Guard’s investigating officers and attorneys. These
      factors likely contributed to ALJ Massey’s belief that the Chief ALJ and
      others were engaging in misconduct and pressuring her to rule against
      mariners. The circumstances surrounding the manner in which ALJ
      Massey disclosed the allegations also reinforced our conclusions and led
      us to doubt her claims.

We Could Not Substantiate ALJ Massey’s Allegations
      ALJ Massey’s allegations hinge primarily on a few remarks allegedly
      made by ALJ Brudzinski during a December 7, 2004, lunch in New
      Orleans, LA, and by the Chief ALJ during an April 8, 2005 meeting at the
      docketing center in Baltimore, MD. Specifically, ALJ Massey alleges: (1)
      the Chief ALJ told her to rule in favor of the Coast Guard; (2) the Chief
      ALJ’s use of the phrase “one big happy family” meant that she needed to
      do her part to support the Coast Guard; (3) ALJ Brudzinski stated, “If I
      ruled that way, the Chief Judge would have my job” and (4) the Chief ALJ
      discussed open cases with a subordinate ALJ. We could not substantiate
      these allegations. We did not identify any evidence that the Chief ALJ
      told his subordinate ALJs how to rule or attempted to control the outcome
      of a case.




 Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                      Page 7

              There is No Evidence that the Chief ALJ Told ALJ Massey to
              Always Rule in Favor of the Coast Guard

              Since leaving the Coast Guard in 2007, ALJ Massey stated on
              several occasions that the Chief ALJ specifically told her to rule in
              favor of the Coast Guard during a meeting held in Baltimore, MD
              on April 8, 2005. She made the allegation in her March 13, 2007,
              meeting with Mr. Mac Morgan. Mr. Morgan was counsel for the
              mariner who appeared before her in USCG v. Elsik. He also filed
              two lawsuits against the Coast Guard that were supported by a
              May 9, 2007 affidavit that he prepared based on ALJ Massey’s
              statements at the March 13, 2007 meeting. In addition, ALJ
              Massey made the allegations before Congress on July 31, 2007,
              and she repeated them during her interviews with us in 2009.

              ALJ Massey stated that it was not until her April 8, 2005, meeting
              with the Chief ALJ that she became certain that the ALJ program
              was biased in favor of the Coast Guard. During that meeting, ALJ
              Massey met with Chief ALJ Ingolia, the ALJ program’s Director
              of Judicial Administration, and two ALJ program staff attorneys to
              discuss her interaction with Coast Guard personnel in New
              Orleans, her hostile work environment concerns, and a March 7,
              2005, memorandum from the Chief ALJ to ALJs concerning
              discovery regulations. In her affidavit, ALJ Massey alleged that
              during the meeting Chief ALJ Ingolia told her the following:

                       “I was specifically told that I should always rule for
                       the Coast Guard and that if I ever found myself
                       faced with a circumstance when I just absolutely
                       positively could not find anyway to rule in favor of
                       the Coast Guard on an issue, that I should rule
                       against them, but word it delicately and just
                       apologize for it as much as I could. Chief Judge
                       Ingolia informed me that I was the only Coast
                       Guard ALJ making trouble for him, the Coast
                       Guard and the Commandant, and that it had to stop.
                       Chief Judge Ingolia told me at that meeting that I
                       should never ever make a ruling that caused the
                       Coast Guard to do one more minute’s work than
                       they wanted to do and that I should never concern
                       myself with how hard it was on a respondent to go
                       through the discovery process or to get discovery,
                       that was just not a concern of mine.”




Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 8

              When we interviewed ALJ Massey, she firmly reiterated the
              statements in her affidavit. We asked ALJ Massey whether the
              Chief ALJ ever told her how to rule on a specific case pending
              before her. ALJ Massey did not identify a specific case in which
              the Chief ALJ told her how to rule. Rather, ALJ Massey replied
              that the Chief ALJ told her how to rule in all of her cases when he
              allegedly told her during the April 8, 2005, meeting to always rule
              in favor of the Coast Guard. Although ALJ Massey provided us
              with memoranda and personal notes that she believed supported
              her allegations, those documents did not prove that the Chief ALJ
              was directing her to rule for the Coast Guard.

              At some point during the April 8, 2005, meeting with the Chief
              ALJ, all but one of the staff members was asked to leave so the
              Chief ALJ could have a more private conversation with ALJ
              Massey. According to the Chief ALJ and the ALJ program’s
              attorney advisor still present at the meeting, the Chief ALJ did not
              tell ALJ Massey to “always rule in favor of the Coast Guard,” and
              the Chief ALJ did not make a statement that could reasonably be
              interpreted to mean “always rule in favor of the Coast Guard.”
              The Chief ALJ told us that he told ALJ Massey that she needed to
              follow the Coast Guard’s regulations. According to the attorney,
              ALJ Massey’s allegation that the Chief ALJ told her to always rule
              in favor of the Coast Guard is “a flat lie.”

              The attorney said she took notes during the meeting and ALJ
              Massey said she made her own notes of the meeting a few hours
              later. We compared the two sets of notes and made several
              observations. First, although the attorney advisor’s version of the
              meeting’s events was consistent with the Chief ALJ’s version of
              the meeting, neither set of notes indicate that the Chief ALJ told
              ALJ Massey to always rule in favor of the Coast Guard. Second,
              the sets of notes parallel each other with regard to topics discussed
              and regarding certain statements made by the Chief ALJ. For
              instance, both sets of notes indicate that (1) the Chief ALJ made
              statements relating to the necessity of getting cases to hearing and
              not dismissing them on technicalities; (2) the Chief ALJ admitted
              that he did not know the specific facts of ALJ Massey’s cases; and
              (3) the Chief ALJ and ALJ Massey discussed the use of
              Administrative Law Judge Internal Procedures and Practices
              (ALJIPPs) to offer policy guidance to ALJs. Third, both sets of
              notes indicate that the Chief ALJ made several comments that
              appeared to instruct ALJ Massey on both the law and her treatment
              of Coast Guard representatives.



Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 9

              Both sets of notes make clear that the Chief ALJ and ALJ Massey
              strongly disagreed with respect to the proper interpretation of the
              Coast Guard’s discovery regulations. Specifically, the Chief ALJ
              appears to have asserted that the Coast Guard’s regulations only
              provide for limited discovery and that the need for discovery must
              be balanced by the need for speed and efficiency in hearings, while
              ALJ Massey remained firm in her belief that broad pre-hearing
              discovery was a permissible tool to aid judicial economy.

              The attorney’s notes and ALJ Massey’s notes both indicate that the
              Chief ALJ told ALJ Massey that she was the problem in District 8.
              ALJ Massey asserts that when the Chief ALJ told her she was the
              cause of the problems that she was having with District 8
              investigating officers, he meant that she was the problem because
              she refused to rule in favor of the Coast Guard. According to the
              Chief ALJ, however, the fact that ALJ Massey ruled against the
              Coast Guard was not the problem. The Chief ALJ said the
              problem was ALJ Massey’s refusal to follow the Coast Guard’s
              laws and regulations and her unprofessional manner toward the
              Coast Guard investigating officers.

              The notes from the meeting along with the testimony of the
              attorney show that the Chief ALJ told ALJ Massey to follow Coast
              Guard law and regulations when deciding cases. The Chief ALJ’s
              instruction did not violate the law, and this direction was consistent
              with his duty to train ALJs and oversee the ALJ program. There is
              no evidence except ALJ Massey’s statements to support her
              allegations that the Chief ALJ told her to rule in favor of the Coast
              Guard. Current and former ALJs as well as several Coast Guard
              employees stated that the Chief ALJ did not discuss pending cases
              with ALJs, and as we noted, ALJ Massey did not allege that the
              Chief ALJ told her how to rule on any particular case.

              We Could Not Substantiate ALJ Massey’s Interpretations of
              Alleged Remarks by the Commandant, the Chief ALJ, and ALJ
              Brudzinski

              ALJ Massey supported her allegation that the Chief ALJ told her
              how to rule with inferences that she made from certain remarks by
              the former Commandant, the Chief ALJ, and ALJ Brudzinski.
              Specifically, she asserted that the Commandant’s remark during
              her job interview that “we take care of our own here at the Coast
              Guard,” the Chief ALJ’s use of the phrase “one big happy family,”
              and ALJ Brudzinski’s alleged statement “if I ruled that way, the
              Chief Judge would have my job” all supported her contention that


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 10

              the Chief ALJ directed his subordinate ALJs to rule in the Coast
              Guard’s favor. ALJ Massey told us that, excluding the comments
              attributed to ALJ Brudzinski, she did not develop her current
              interpretation of those comments until after the April 8, 2005
              meeting, and did not tell anyone of her interpretation until two
              years later.

              ALJ Massey noted that during her interview process, when she
              heard the Commandant say, “We take care of our own,” she
              believed he meant that that the Coast Guard supported its
              employees with respect to family or work-related issues. She also
              stated that before the April 8, 2005 meeting, whenever she heard
              the Chief ALJ use the phrase, “one big happy family,” she believed
              that he was referring solely to the ALJ program and not to the
              Coast Guard as a whole. In addition, in her contemporaneous
              notes from the December 7, 2004 luncheon with ALJ Brudzinski,
              ALJ Massey does not state either that she believed that ALJ
              Brudzinski was not an independent fact finder or that he had
              predetermined the outcome of the Dresser matter. This is
              inconsistent with the level of certainty that she expressed on those
              issues over two years later in her affidavit and, even later in her
              2009 interviews with us.

              ALJ Massey’s Interpretation of the Commandant’s Alleged
              Remark

              ALJ Massey stated that during her interview process she met with
              Commandant Collins for approximately five minutes, and that they
              did not discuss anything substantive. She stated that when she
              heard the Commandant say, “We take care of our own,” she
              believed at the time that he meant that the Coast Guard supported
              its employees with respect to family or work-related issues. ALJ
              Massey later interpreted this alleged remark to mean that the
              Commandant was not saying that the Coast Guard supports its
              employees, but instead was hinting that he expected her to treat the
              Coast Guard favorably in her official capacity as an ALJ. We did
              not conclude that if the Commandant uttered this phrase he was in
              fact telegraphing an expectation that she rule in favor of the Coast
              Guard once she became a Coast Guard ALJ. Furthermore, neither
              the Chief ALJ nor ALJ Massey ever felt obligated to follow such
              an alleged directive.

              We do not agree with ALJ Massey that the Commandant implied
              to her before she was hired that Coast Guard ALJs are expected to
              forsake their oath of office and rule for the Coast Guard. It is


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 11

              unlikely the Commandant could affect such behavior on that
              comment alone. Coast Guard Commandants serve a four-year
              term and must be appointed by the President and confirmed by the
              Senate. They are not involved in the issuance of S&R CDOAs,
              having delegated that authority to the Vice Commandant, and the
              operation of the S&R adjudication process would not take up a
              significant amount of the Commandant’s time and attention.
              Historically, S&R hearings and CDOA issuance represent only a
              small portion of the Coast Guard’s mission-related activities and
              LMI’s workload, respectively.

              In contrast, the Chief ALJ’s tenure is indefinite. And, as is
              discussed in greater detail below, the APA protects the Chief ALJ
              and all other ALJs from being subject to improper adverse
              employment actions. Further, given the length of time it takes for
              an ALJ decision to be appealed and the periodic rotation of Coast
              Guard military employees, including the Commandant, even if the
              Commandant had directed the Chief ALJ to pressure his ALJs to
              rule in the favor of the Coast Guard, he would have no way to
              ensure that the Chief ALJ followed his directive. Finally, Chief
              ALJ Ingolia asserted that no Commandant has ever instructed him
              to rule in favor of the Coast Guard, nor has a Commandant ever
              implied that the Coast Guard ALJ should “take care of its own”
              when presiding over S&R proceedings.

              ALJ Massey’s Interpretation of the Chief ALJ’s Frequently Used
              Remark, “One Big Happy Family”

              ALJ Massey told us that when she first heard the Chief ALJ use
              the phrase, “one big happy family,” she believed the phrase
              referred to the ALJ program and not to the Coast Guard as a whole.
              However, in her March 2007 affidavit, she alleged that in the April
              8, 2005, meeting “Chief ALJ Ingolia made it very clear that ‘we’re
              one big happy family’ means [she] need[s] to do [her] part to
              support the Coast Guard.” ALJ Massey also alleges that by
              “support the Coast Guard, [she] was specifically told that [she]
              should always rule for the Coast Guard.” Therefore, ALJ Massey
              interpreted Chief ALJ Ingolia’s use of the phrase “one big happy
              family” to mean that she should always rule for the Coast Guard.

              The Chief ALJ told us that he uses this phrase often and is
              referring to ALJ program employees, more specifically, the
              docketing center employees and the ALJs. No current or former
              employee with whom we spoke shared ALJ Massey’s
              interpretation of what the phrase means. We interviewed several


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 12

              current and former ALJ program staff members regarding the
              Chief ALJ’s use of this phrase, and each of them insisted the Chief
              ALJ uses the phrase to refer only to the ALJ program staff and that
              they have never heard him use the phrase as a reference to the
              Coast Guard as a whole. They explained that the Chief ALJ
              preferred to run the ALJ program, particularly the docketing
              center, like a large family, avoiding conflict where possible and
              taking notice of each other’s family lives and personal
              achievements.

              We uncovered no evidence through witness testimony, supporting
              facts, or other documentation that the Chief ALJ expects the ALJs
              to rule in favor of the Coast Guard or has directed them to do so.
              On the contrary, Chief ALJ Ingolia has undertaken several steps to
              make the ALJ program more independent from the Coast Guard.
              The ALJ program occupied offices in buildings where S&R
              program staff were located but did not share office space with
              S&R program staff. He limited his interaction with other Coast
              Guard senior leadership, and declined to review ALJ’s pending
              cases although his job description authorizes him to do so.

              We Could Neither Substantiate ALJ Brudzinski’s Alleged Remark
              nor ALJ Massey’s Interpretation of it, and There is No Evidence
              that ALJ Brudzinski Prejudged the Dresser Case

              In the affidavit filed in Dresser v. Ingolia, ALJ Massey alleged that
              during a lunch conversation on December 7, 2004, ALJ Brudzinski
              made certain statements to her. ALJ Massey attended the hearing
              in New Orleans as an observer. According to ALJ Massey, at the
              lunch, which took place during a break in the USCG v. Dresser
              hearing, ALJ Brudzinski said that if he ruled in favor of Mr.
              Dresser, the Chief ALJ “would have [his] job.” ALJ Massey
              asserted that ALJ Brudzinski was serious when he made this
              statement and that he repeated it while shaking his head. This
              alleged statement led her to believe that the Chief ALJ told ALJ
              Brudzinski how to rule in the case and that the outcome of the case
              was predetermined prior to the beginning of the hearing.

              We cannot say with complete certainty whether ALJ Brudzinski
              made these statements. However, we did not identify any evidence
              that (1) confirmed that ALJ Brudzinski actually made the alleged
              statements in a serious manner; (2) ALJ Brudzinski prejudged the
              outcome of the Dresser matter; (3) ALJ Brudzinski believed that
              Chief ALJ Ingolia could or would fire him for not ruling in favor



Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 13

              of the Coast Guard; or (4) Chief ALJ Ingolia told ALJ Brudzinski
              how to rule.

              When we asked ALJ Brudzinski whether he made the statement
              that ALJ Massey ascribed to him in her affidavit, he could not
              specifically recall his actual statements at the December 7, 2004,
              lunch. However, he insisted that had he made the alleged
              statement or a similar remark, he was not and could not have been
              serious, and ALJ Massey must have misunderstood the context in
              which he made it. Two ALJ program staff members, both of
              whom had left the ALJ program by the time of our interview,
              attended the luncheon with ALJ Brudzinski and ALJ Massey.
              Neither former staff member remembered ALJ Brudzinski making
              the alleged remark, though all four people were sitting in a booth at
              a fast food restaurant at the time. In addition, they both stated that
              had he made the remark, they would have noticed and remembered
              it, because ALJ Brudzinski had a reputation within the ALJ
              program for being a good, thoughtful judge. The former staff
              members present at the lunch believe that if ALJ Brudzinski made
              the alleged statement, he did not mean for it to be taken literally.

              ALJ Brudzinski asserted that at that time of the December 7, 2004,
              lunch, he had not yet determined the outcome of the Dresser
              matter. He stated that it took him several months to review the
              voluminous record in the matter and to reach a decision. He noted
              that the breadth and depth of his final opinion in Dresser, which
              was 60 pages long, reflects that fact. One of the ALJ program staff
              members who attended the December 7, 2004, lunch, was a law
              clerk assigned to assist ALJ Brudzinski in writing the Dresser
              opinion. This law clerk confirmed that she and ALJ Brudzinski
              spent a long time reviewing the facts in the Dresser matter, trying
              to determine which party should prevail. She insisted that the
              outcome of the case was not predetermined and noted that ALJ
              Brudzinski did not issue his opinion in Dresser until six months
              after the lunch.

              For ALJ Massey’s allegation that ALJ Brudzinski was serious
              when he allegedly said the Chief ALJ would “have his job” to be
              valid, ALJ Brudzinski had to believe that Chief ALJ Ingolia could
              actually fire him for not ruling according to Chief ALJ Ingolia’s
              alleged instructions. There was no evidence that ALJ Brudzinski
              believed that Chief ALJ Ingolia could fire him for ruling contrary
              to Chief ALJ Ingolia’s direction. ALJ Brudzinski asserted that an
              ALJ’s independence is protected by the APA and that every ALJ
              knows that they cannot be summarily fired by their agency. He


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 14

                               told us that it is common knowledge among ALJs that they cannot
                               be removed by the agency unless there is a determination of good
                               cause by the MSPB.

                               We confirmed ALJ Brudzinski’s statements regarding both the
                               protections afforded the ALJs and the fact that the existence of
                               those protections is common knowledge among ALJs. The APA
                               prohibits an agency from removing, suspending, or reducing the
                               pay or grade of an ALJ without good cause and adjudication of the
                               matter before the MSPB. 4 Further, OPM regulations prevent
                               agencies from giving an ALJ a performance evaluation, setting an
                               ALJ’s pay rate, or giving any monetary or honorary award or
                               incentive to an ALJ. 5 These protections help to safeguard an
                               ALJ’s decisional independence, because the agency can neither
                               penalize nor reward an ALJ, regardless of whether it agrees or
                               disagrees with the ALJ’s decisions.

                               There is no evidence to support ALJ Massey’s allegation that Chief
                               ALJ Ingolia told ALJ Brudzinski how to rule. Both Chief ALJ
                               Ingolia and ALJ Brudzinski stated that they rarely spoke to each
                               other until they were both named as defendants in Dresser v.
                               Ingolia. ALJ Brudzinski told us that when they did speak, they did
                               not speak about pending cases. ALJ Brudzinski also stated that
                               Chief ALJ Ingolia was a “hands off” manager and current and
                               former members of the ALJ program’s senior staff and other Coast
                               Guard ALJs confirmed this fact. The Chief ALJ delegates much of
                               his administrative and supervisory authority to the Director of
                               Judicial Administration and his senior staff. Further, he rarely
                               initiated any substantive contact with the field ALJs, with the
                               exception of the ALJ program’s annual training conferences or
                               periodic, program-wide conference calls. For example, the Chief
                               ALJ does not require docketing center staff to obtain his approval
                               before assigning cases to ALJs, providing legal support and advice
                               to ALJs, or assisting ALJs with any logistical issues. As a result,
                               the Chief ALJ is largely removed from the day-to-day
                               administration of the ALJ program and is unlikely to know the
                               status of any particular case assigned to a field ALJ. In fact,
                               certain ALJs and docketing center senior staff felt that perhaps he
                               was too removed from the workings of the ALJ program and did
                               not provide enough guidance to his staff or support to his field
                               ALJs.


4
    5 U.S.C. § 7521.
5
    5 C.F.R. § 930.205-.206.



              Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                   Page 15

              In addition, ALJ Massey did not explain, and neither did ALJ
              Brudzinski, as to why he, who barely knew her, allegedly
              confessed to her in this manner and about such a serious issue.
              And although ALJ Massey now contends that she was extremely
              bothered by ALJ Brudzinski’s remarks, she treated ALJ Brudzinski
              and the two staff members as if nothing happened the day after the
              lunch. She did not mention her concerns to anyone at the lunch or
              during her tenure as a Coast Guard ALJ.

              ALJ Massey’s allegation that Chief ALJ Ingolia told ALJ
              Brudzinski how to rule is based on inference and speculation. She
              admitted that ALJ Brudzinski never said the Chief ALJ had told
              him how to rule in Dresser, nor did ALJ Brudzinski ever tell her
              which party would ultimately prevail in the matter. During her
              March 13, 2007 meeting with Mr. Morgan, ALJ Massey stated,
              “ALJ Brudzinski never said, ‘the Chief ALJ told me how to rule in
              this case,’ but the gist of the conversation was, in my professional
              opinion, that there had been conversations and the Chief ALJ had
              indicated to him how the case needed to come out.” Thus, ALJ
              Massey’s allegation that ALJ Brudzinski prejudged the Dresser
              matter at the Chief ALJ’s direction is only based on her own
              supposition.

              There is No Evidence that the Chief ALJ Engaged in any Improper
              Discussions About Pending Cases

              In her affidavit and in her interviews with us, ALJ Massey
              discussed two instances in which she believes pending cases were
              inappropriately discussed. In various venues, she has also asserted
              that these discussions may have constituted prohibited, ex parte
              communications. In the first instance, she mentioned that during
              her job interview with Chief ALJ Ingolia, the Chief ALJ told her
              that he was on the phone with ALJ Brudzinski and that, from time
              to time, he talks about active cases with ALJ Brudzinski.
              However, even if her allegations are true, they do not, without
              more facts, provide evidence of any improper conduct. The second
              instance occurred on February 24, 2005, when ALJ program staff
              and an attorney who handles appeals to the Commandant met with
              District 8 S&R program staff to hear their complaints about ALJ
              Massey’s rulings and demeanor. As discussed below, this meeting
              did create an appearance of impropriety. However, there was no
              evidence that any ex parte communications occurred at the
              meeting or that the Chief ALJ or the Commandant ever directed
              the outcomes of any pending S&R case or appeal, respectively.



Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 16

                          Under the APA, an ex parte communication is defined as “an oral
                          or written communication not on the public record with respect to
                          which reasonable prior notice to all parties is not given.” 6 The
                          APA prohibits ex parte communications when the communications
                          between an “interested person” and an agency decision maker are
                          “relevant to the merits of the proceeding.” 7 The APA also
                          prohibits certain commingling of investigative and adjudicative
                          functions. Specifically, “[a]n employee or agent engaged in the
                          performance of investigative or prosecuting functions for an
                          agency in a case may not, in that or a factually related case,
                          participate or advise in the decision, recommended decision, or
                          agency review, except as witness or counsel in public
                          proceedings.” 8 In this case the ALJ, in addition to the agency
                          presiding official, cannot consult a person or party regarding a fact
                          at issue in a proceeding unless all parties in the matter are given
                          notice and an opportunity to participate. 9 The ALJ program
                          explicitly requires Coast Guard ALJs to follow the APA’s
                          prohibitions on the commingling of functions and ex parte
                          communications. Further, the Coast Guard has incorporated the
                          APA’s prohibition on ex parte communications into the regulations
                          governing S&R proceedings. 10

                          It is Permissible for the Chief ALJ to Discuss Pending Cases with
                          the ALJs

                          As stated above, ALJ Massey alleges that the Chief ALJ told her
                          that he routinely discussed pending cases with ALJ Brudzinski. In
                          addition, she asserted that the discussion of pending cases between
                          the Chief ALJ and one of his subordinate ALJs is inherently
                          improper and could be construed as a prohibited ex parte
                          communication. However, neither the APA nor the American Bar
                          Association’s (ABA) Model Code of Judicial Conduct (Model
                          Code) prohibits ALJs from discussing pending cases with each
                          other or with members of their staff. Further, the Chief ALJ may
                          review and discuss pending cases in furtherance of his
                          administrative responsibilities.

                          Both the APA and the Model Code prohibit ALJs from acquiring
                          facts not already in the record without giving notice to all parties to

6
  5 U.S.C. § 551(14). 

7
  5 U.S.C. § 557(d)(1)(A) & (B).

8
  5 U.S.C. § 554(d).

9
  5 U.S.C. § 554(d)(1).

10
   33 C.F.R. § 20.205 (mandating that ALJs must comply with 5 U.S.C. § 557(d)).




           Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                Page 17

                          the proceeding. Under the APA, ALJs are prohibited from
                          discussing the merits of a case with outside parties, but no such
                          prohibition exists regarding discussions with other employees
                          engaged in adjudicatory functions such as other ALJs or their law
                          clerks. ALJs are prohibited from consulting with Coast Guard
                          employees performing investigative or prosecutorial tasks, or with
                          mariners or their counsel, about the facts at issue in a pending
                          matter without notice to all parties. Nothing prohibits ALJs from
                          discussing the merits of a pending case with fellow members of the
                          ALJ program. As a practical matter, in order to obtain legal
                          research and advice from the ALJ program’s law clerks, attorney
                          advisors, and fellow ALJs, an ALJ must discuss the substantive
                          issues in their cases.

                          ALJ Massey alleged that the Chief ALJ’s discussions with ALJ
                          Brudzinski were improper. However, the law, judicial canons, and
                          agency policy authorize the Chief ALJ to discuss pending cases
                          with ALJs. The Model Code also allows ALJs to discuss pending
                          cases with each other and with their staff. According to the Model
                          Code:

                                   A judge may consult with court staff and court
                                   officials whose functions are to aid the judge in
                                   carrying out the judge’s adjudicative
                                   responsibilities, or with other judges, provided the
                                   judge makes reasonable efforts to avoid receiving
                                   factual information that is not part of the record, and
                                   does not abrogate the responsibility personally to
                                   decide the matter. 11

                          However, the Model Code states that judges cannot abdicate their
                          decision-making responsibility to another. ALJ Massey concluded
                          that there were ex parte communications between Chief ALJ
                          Ingolia and ALJ Brudzinski because she thought the Chief ALJ
                          must have told ALJ Brudzinski how he expected him to rule.
                          Although she did not specifically make the connection, we
                          assumed she based this allegation on the Chief ALJ’s alleged
                          statement regarding his discussions of active cases with ALJ
                          Brudzinski and ALJ Brudzinski’s alleged statement at lunch on
                          December 7, 2004. Nevertheless, ALJ Massey acknowledged that

11
  ABA Model Code of Judicial Conduct, Canon 3B(7)(c) (1990). See also Rule. 2.9, Comment 5, “A
judge may consult with other judges on pending matters, but must avoid ex parte discussions of a case with
judges who have previously been disqualified from hearing the matter, and with judges who have appellate
jurisdiction over the matter.” Model Code of Judicial Conduct (2007).



            Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                 Page 18

              she neither heard the Chief ALJ discuss pending cases with another
              ALJ nor heard the Chief ALJ direct another ALJ how to rule. She
              also admitted that ALJ Brudzinski never said that the Chief ALJ
              told him how to rule. ALJ Massey did not provide any evidence
              that the Chief ALJ had ever either discussed facts outside the
              record with his subordinate ALJs or prevented or improperly
              influenced any ALJ from deciding their cases as they saw fit. The
              Chief ALJ told us that during the April 8, 2005, meeting he told
              ALJ Massey that he would have ruled differently than she did on
              the issues in certain matters. That said, the Chief ALJ only
              discussed ALJ Massey’s rulings in closed cases. ALJ Massey did
              not allege that the Chief ALJ tried to influence her with respect to
              any specific case.

              There is No Evidence that Prohibited Ex Parte Communications
              Took Place at the February 24, 2005, Meeting

              ALJ Massey alleges that improper, ex parte communications may
              have taken place either between the ALJ program staff and the
              investigating officers or between an attorney from LMI and
              investigating officers at the February 24, 2005 meeting. Although
              there is no evidence that any prohibited, ex parte communications
              took place at the meeting, there were two instances of contact
              between the Coast Guard’s adjudicative staff and its S&R program
              staff that were ill-advised and made the meeting appear improper.

              No prohibited ex parte communications took place at the February
              24, 2005, meeting because the relevant agency decision maker, i.e.,
              ALJ Massey, was not in attendance. Although the investigating
              officers discussed various issues regarding the proper
              interpretation of discovery regulations in the context of their cases,
              the ALJ program representatives who attended, the Director of
              Judicial Administration and two ALJ program staff attorneys, were
              not involved in any matters pending before ALJ Massey, and did
              not have any decision-making role with respect to those matters.

              Although we concluded that there were no prohibited, ex parte
              communications, there were two instances of ill-advised contacts
              between the adjudicative and prosecutorial arms of the Coast
              Guard S&R program. In the first instance, an LMI attorney who
              was involved with drafting CDOAs on behalf of the Vice-
              Commandant, attended the meeting. In the second instance, a
              member of the Chief ALJ’s senior staff debriefed ALJ Massey on
              what occurred at the meeting, which led her to conclude that the
              District 8 investigating officers were complaining about her rulings


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 19

              in pending cases. However, there is no evidence that the
              Commandant or the Chief ALJ directed these individuals to
              influence the outcome of a pending S&R case or appeal, or that
              contact between the adjudicative and prosecutorial arms of the
              Coast Guard influenced the outcome of any case.

              When the Chief ALJ sent members of his senior staff to New
              Orleans to investigate the complaints about ALJ Massey’s
              treatment of investigating officers in her courtroom, he gave
              instructions that they should not discuss pending cases and, in
              particular, not discuss cases by name. Instead, he only wanted his
              staff to discuss the general issues about which the investigating
              officers had complaints, with the hope of being able to resolve
              those issues without having to undertake a more formal
              investigation of ALJ Massey’s conduct. When the meeting began,
              attendees were given ground rules prohibiting them from
              discussing specific cases by name. Chief ALJ Ingolia only
              allowed members of his staff who were not providing assistance to
              ALJ Massey on pending cases to attend the meeting. The staff
              members who attended the meeting told us that prior to the
              meeting they believed the investigating officers’ complaints to be
              frivolous and based largely on the officers’ dislike of ALJ
              Massey’s demeanor.

              Unbeknownst to the Chief ALJ and his staff, the S&R program
              staff invited the LMI attorney to attend the meeting and act as the
              S&R program’s expert on Coast Guard policy and precedent.
              Between the time that the Chief ALJ’s office received the
              investigating officers’ written complaints in December and the
              February meeting, ALJ Massey had issued several rulings,
              primarily involving discovery matters, that the District 8 attorneys
              and investigating officers believed were incorrect as a matter of
              law. Although the LMI attorney attended the meeting to be a
              resource for the S&R program staff, she told us and other meeting
              attendees confirmed that she was not an active participant in the
              meeting.

              The LMI attorney’s attendance was not an improper ex parte
              contact because none of the matters being discussed were under
              appeal to the Commandant at the time of the meeting. As a result,
              she was not involved in the agency’s decision-making process at
              that time. However, she should have been prohibited from later
              participating in the appeals of ALJ Massey’s cases. Despite the
              attendees’ assertions that no case names were discussed during the
              meeting, attendees knew that ALJ Massey’s cases were the subject


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 20

              of discussion and it is possible that the LMI attorney could have
              recognized the cases once they reached LMI on appeal. Although
              there is no evidence that the LMI attorney’s attendance affected the
              outcome of the appeals, she was involved in drafting the initial
              CDOAs for almost all of ALJ Massey’s cases. The Coast Guard
              asserts that because the CDOAs undergo several levels of review
              before they are submitted to the Vice Commandant for signature,
              the LMI attorney’s presence at the meeting did not affect the
              outcome of any CDOA. Without regard to whether her attendance
              at the meeting affected the outcome of the CDOA, it created an
              appearance of impropriety and exposed the need for procedures to
              prevent improper contact between the S&R program staff and the
              appellate staff.

              The second contact occurred after the February 24, 2005, meeting.
              The Chief ALJ assigned one of the staff attorneys who attended the
              meeting to act as a liaison between the Chief ALJ’s staff and ALJ
              Massey during the Chief ALJ’s investigation into the investigating
              officers’ allegations. The staff attorney provided ALJ Massey with
              a copy of the investigating officers’ complaints before the meeting.
              He also invited ALJ Massey to the February 24, 2005, meeting. A
              few days after the meeting, he called ALJ Massey to inform her of
              the investigating officers’ complaints at the meeting. However, the
              Chief ALJ was unaware that the senior attorney was sharing the
              investigating officers’ written complaints and the topics discussed
              during the meeting with ALJ Massey. Likewise, the Chief ALJ
              was unaware that the senior attorney initially invited ALJ Massey
              to attend the meeting.

              While listening to the ALJ program attorney recount the details of
              the meeting, ALJ Massey asserted that the investigating officers
              had discussed issues that had arisen in cases pending before her,
              and she abruptly ended the call before the senior attorney could
              assure her that no case names were discussed and that precautions
              were taken to prevent improper ex parte discussions. Although the
              members of the Chief ALJ’s senior staff, including the senior
              attorney who briefed ALJ Massey after the meeting, did not know
              whether the matters discussed with the investigating officers
              related to ALJ Massey’s pending cases because they were not
              involved in them, ALJ Massey recognized her own pending cases.

              By discussing the matters from the February 24, 2005, meeting
              with ALJ Massey, the senior attorney gave ALJ Massey the
              impression that the Coast Guard was dissatisfied with her rulings
              and was, as a result, trying to get the Chief ALJ to discipline her


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 21

                          and thereby force her to rule in the Coast Guard’s favor. Although
                          communications between the ALJ program staff attorney and the
                          investigating officers could not be considered ex parte because the
                          staff attorney was not involved in any of the pending cases, by
                          conveying the investigating officers’ comments to ALJ Massey, he
                          could have inadvertently conveyed ex parte information to her. He
                          could have provided ALJ Massey with facts that were not in the
                          case record in violation of the Model Code. But to the extent that
                          he did, only ALJ Massey would have been in the position to
                          recognize that fact and make note of it on the record, as is required
                          by the Model Code, the APA, 12 and Coast Guard regulations. 13
                          ALJ Massey did not enter any information relating to the February
                          24, 2005, meeting on the record.

                          Although we identified two instances in which problematic contact
                          occurred in conjunction with the February 24, 2005, meeting
                          between the Chief ALJ’s senior staff and the Coast Guard’s S&R
                          prosecutorial staff, none of these contacts were made either under
                          the direction of or with the knowledge of the Chief ALJ. In
                          addition, none of the contacts that were made involved contact
                          between a party and a member of the ALJ program who was
                          involved in the drafting and issuing of decisions in ALJ Massey’s
                          Coast Guard cases.

        The Chief ALJ Instructed ALJ Massey to Follow Regulations
                          We could not find sufficient evidence to support ALJ Massey’s
                          allegations that Chief ALJ Ingolia told her during an April 8, 2005,
                          meeting that she should always rule in favor of the Coast Guard.
                          Further, both the Chief ALJ and the ALJ program’s attorney
                          advisor present asserted that the Chief ALJ only told ALJ Massey
                          to follow the law and did not otherwise direct her how to rule in
                          her cases. Upon further review of contemporaneous documents,
                          witness statements, and ALJ Massey’s rulings, the Chief ALJ’s
                          version of events appeared accurate.

                          We substantiated the Chief ALJ’s assertions that (1) ALJ Massey
                          repeatedly ruled in contravention of the Coast Guard’s discovery

12
   See 5 U.S.C. 557(d)(1)(C) (requiring an ALJ who receives a prohibited ex parte communication to place
on the public record of the proceeding: “(i) all such written communications; (ii) memoranda stating the
substance of all such oral communications; and (iii) all written responses, and memoranda stating the
substance of all oral responses, to the materials described in clauses (i) and (ii)….”).
13
   According to 33 C.F.R. 20.205, “Ex parte communications are governed by subsection 557(d) of the
Administrative Procedure Act (5. U.S.C. 557(d)).



           Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                Page 22

              regulations; (2) she refused to be guided by ALJ program staff
              when he advised her to follow the law; and (3) as a result of a
              backlog in the CDOA process, without his intervention, ALJ
              Massey would have been able to issue orders in contravention of
              the regulations for years before the Commandant could correct her
              errors of law on appeal. This would have allowed the S&R
              program’s busiest judicial district to operate in a dysfunctional
              manner for an indefinite period of time. According to the Chief
              ALJ, it was for these reasons that he tried to address the ALJ
              program’s concerns with ALJ Massey’s discovery rulings during
              the April 8, 2005, meeting by instructing her to follow the Coast
              Guard regulations.

              ALJ Massey Did Not Follow Coast Guard Law

              We believe the Chief ALJ’s assertion that at the April 8, 2005,
              meeting, he directed ALJ Massey to follow the law. ALJ Massey
              had not followed Coast Guard’s discovery regulations repeatedly
              and, in one instance, openly refused to follow Coast Guard
              precedent.

              At the time of the April 8, 2005, meeting, ALJ Massey had just
              finished issuing a series of controversial discovery orders in USCG
              v. Rogers and USCG v. Elsik, which ended with her dismissing the
              matters with prejudice because of the Coast Guard’s refusal to
              comply with those orders. In both cases, ALJ Massey ordered the
              Coast Guard to comply with discovery orders that she issued in
              contravention of Coast Guard regulations without giving the Coast
              Guard a chance to object to their issuance. For example, in USCG
              v. Rogers, the respondent requested a subpoena without filing a
              motion as required by 33 C.F.R. § 20.608(a) and without
              establishing the circumstances requiring discovery as required by
              33 C.F.R. § 20.601(e). The next day, ALJ Massey issued the
              subpoena without making the necessary determinations required by
              33 C.F.R. § 20.601(d). Further, she granted the motion within 24
              hours, thereby denying the Coast Guard the 10 days to respond as
              required by 33 C.F.R. § 20.309(d). In effect, ALJ Massey shifted
              the respondent’s burden of proof to the Coast Guard, requiring the
              Coast Guard to prove why further discovery should not be granted
              instead of requiring the respondent to prove that it should. In
              addition, in the Elsik matter, ALJ Massey openly refused to follow
              binding Coast Guard legal precedent. Specifically, she stated
              during a prehearing conference that she disagreed with the
              Commandant’s reasoning in a CDOA and would not follow it. In
              the Elsik decision, ALJ Massey reiterated her refusal to follow


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 23

                            Coast Guard precedent, asserting that she found the Commandant’s
                            logic “peculiar” and “creative.”

                            In both the Elsik and Rogers cases, the Vice Commandant reversed
                            ALJ Massey on appeal for having erred on the law. In Rogers, the
                            Vice Commandant found that ALJ Massey abused her discretion
                            and exceeded her authority by dismissing the case with prejudice
                            on the basis of the Coast Guard’s discovery violations. In Elsik,
                            the Vice Commandant also reversed ALJ Massey, holding that she
                            (1) committed an error of law when she dismissed the misconduct
                            allegations in contravention of the plain-language of the statute;
                            (2) abused her discretion and committed an error of law when she
                            dismissed the negligence allegation for a discovery violation; and
                            (3) acted arbitrarily and capriciously by failing to follow the
                            applicable discovery rules. In short, the Vice Commandant found
                            that ALJ Massey “misunderstood the applicable law and
                            misapplied the Coast Guard’s procedural rules.” 14

                            ALJ Massey did not have the authority to ignore federal
                            regulations or Coast Guard precedent when deciding her cases.
                            Although the APA contains a number of provisions designed to
                            guarantee the decisional independence of hearing examiners, the
                            ALJ’s decisional independence is necessarily limited because “[o]n
                            matters of law and policy…ALJs are entirely subject to the
                            agency.” 15 According to the APA, an ALJ’s enumerated powers in
                            presiding over a hearing are subject to the published rules of the
                            agency. Furthermore, the APA allows agencies to retain the right
                            to review an ALJ’s decisions and to reverse those decisions on
                            policy grounds, thereby allowing the agency to impose its policy
                            views on ALJ decisions through the appeals process. In essence,
                            Congress has directed the agency to promulgate regulations, to
                            formulate policy through fact-finding and application of the law,
                            and to issue the agency’s position in any given matter. The APA
                            does not authorize the ALJ to usurp that authority.

                            Accordingly, the Commandant always retains the right to issue a
                            final determination in S&R proceedings as to both fact and law.
                            Specifically, the Commandant has the ability to direct the ALJ’s
                            policy determinations and interpretation of the regulations by
                            issuing binding Decisions on Appeal. Thus, as a Coast Guard ALJ,
                            ALJ Massey was required to follow not only Coast Guard

14
     Appeal Decision 2658 (ELSIK) (2006).

15
     Ass’n of Admin. Law Judges v. Heckler, 594 F. Supp. 1132, 1141 (D.D.C. 1984). 





              Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                   Page 24

                            regulations, but also the Commandant’s statements of policy as
                            articulated in CDOAs. ALJ Massey did not have the authority to
                            ignore the Coast Guard’s regulations, policies, or procedures or the
                            authority to create her own interpretations of law that were
                            independent of the agency. 16

                            ALJ Massey Refused Guidance to Follow the Law

                            Although ALJ Massey may have construed the Chief ALJ’s
                            guidance to follow the law to be an infringement upon her
                            decisional independence and an improper directive as to how to
                            rule in her S&R cases, such instruction is appropriate and in
                            keeping with the Chief ALJ’s role as head of the ALJ program.
                            The Commandant has delegated to the Chief ALJ the authority to
                            ensure “general compliance of subordinate judges’ decisions with
                            agency rules and procedures” and to develop and implement
                            “policies and other guidance which has usage throughout the
                            agency-wide ALJ program.” In addition, the Chief ALJ is tasked
                            with training new and incumbent ALJs, reviewing the ALJs’
                            decisions to ensure that the ALJs are complying with the
                            applicable law and generally making certain that ALJs are
                            performing their duties competently.

                            In interviews, the Chief ALJ as well as current and former
                            members of his senior staff asserted that many of the actions that
                            ALJ Massey interpreted as attempts to pressure her to rule in favor
                            of the Coast Guard were in fact attempts to get ALJ Massey to rule
                            according to the law. According to ALJ program staff, the Chief
                            ALJ was attempting to get ALJ Massey to rule in accordance with
                            the law without having to initiate an informal disciplinary action
                            against her. The ALJ program’s senior staff told us that after the
                            February 24, 2005, meeting at which the investigating officers
                            complained about ALJ Massey ruling in contravention of Coast
                            Guard discovery regulations, the ALJ program was put on notice
                            that ALJ Massey was not following the law. Soon thereafter, the
                            ALJ program issued the March 7, 2005, discovery memorandum.

                            According to the ALJ program, they designed this memorandum to
                            be a clear restatement of the regulations and to put an end to any
                            misunderstandings of the Coast Guard’s discovery regulations that
                            existed among the ALJs. ALJ program senior staff stated that they
                            anticipated that ALJ Massey would likely--and, in our view,
                            correctly--believe that the memorandum was directed at her, but

16
     5 U.S.C. § 556(c).



              Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                   Page 25

              they felt preventing any further erroneous rulings was more
              important. The Coast Guard district that ALJ Massey presided
              over generated more contested S&R cases than any other in the
              Coast Guard and the ALJ program believed that a dysfunctional
              adjudicative process in her courtroom could severely disrupt both
              the ALJ and S&R programs. Furthermore, given the lengthy
              appeals process, the ALJ program feared that without the Chief
              ALJ’s intervention, ALJ Massey would continue to issue erroneous
              rulings for years before the relevant cases were overturned by the
              Commandant.

              It is evident in her affidavit, her memoranda to the Chief ALJ, and
              in her interviews with us that ALJ Massey believed that the March
              7, 2005, memorandum was an “attempt to invade the domain of
              [her] judicial independence.” She suspected that the S&R program
              staff may have been involved in the drafting of the March 7, 2005,
              memorandum. For example, in her April 4, 2005, memorandum to
              the Chief ALJ, ALJ Massey stated that similarities between the
              content of the March 7, 2005, memorandum and two pleadings
              filed by the Coast Guard in her cases showed that the Coast Guard
              was using the Chief ALJ’s office to get its way with respect to
              rulings on issues in cases before her. However, there is no
              evidence that anyone outside of the ALJ program was involved in
              the drafting in the discovery memorandum, nor is there any
              evidence that the memorandum was intended to influence any ALJ
              to rule in favor of the Coast Guard. In fact, much of the language
              in the March 7, 2005, memorandum appears to be drawn directly
              from the Coast Guard’s discovery regulations and the Federal
              Register, and in any event, would be equally applicable to all
              parties in Coast Guard proceedings

              During this same time, ALJ Massey decided that the legal research
              given to her by the docketing center staff attorneys and law clerks
              were further attempts by the Chief ALJ to influence her judicial
              decision-making, even if the research was performed in response to
              her own requests for assistance. In both the Rogers and Elsik
              matters, she ignored the staff attorneys’ legal research that showed
              that her decisions were not supported by, and in some cases were
              in direct contravention of, Coast Guard precedent. For example, in
              the Elsik matter, a docketing center intern advised ALJ Massey in a
              legal research memorandum that “Coast Guard law firmly supports
              the use of criminal statutes to establish misconduct,” and referred
              her to binding CDOAs. Nevertheless, ALJ Massey ruled contrary
              to precedent. We found no evidence that either the Chief ALJ or
              any member of his senior staff ever directed the outcome of any


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 26

              legal research or advice that the docketing center provided to the
              Coast Guard ALJs.

              Thus, at the time of the April 8, 2005, meeting, ALJ Massey had
              refused the ALJ program’s attempts to get her to rule according to
              the law. This supported the Chief ALJ’s statements that during the
              meeting he was instructing her to follow Coast Guard regulations,
              and was not directing her to always rule in favor of the Coast
              Guard.




              The Coast Guard Did Not Issue CDOAs in a Timely Manner

              Although waiting for the appeals process to run its course might
              have ultimately proved less disruptive to the ALJ program than the
              Chief ALJ instructing ALJ Massey to follow regulations, there was
              a significant backlog of CDOAs during ALJ Massey’s tenure at the
              Coast Guard. Excluding the fact that at least one of the appeals of
              ALJ Massey’s cases may have been stayed as a result of
              subsequent civil litigation, some of her cases were pending on
              appeal for almost two years. In addition, ALJ Massey’s Coast
              Guard district produced more contested S&R cases than most of
              the other districts combined. Allowing ALJ Massey to continue to
              rule in contravention of the law would have further burdened the
              appeals process, prevented mariners from getting a speedy and
              final resolution of matters in which their livelihood was at stake,
              and allowed mariners who did not operate in compliance with
              marine safety laws to retain their licenses indefinitely.

              During her tenure as a sitting Coast Guard ALJ, ALJ Massey
              presided over 12 S&R hearings. Although a mariner never
              appealed one of ALJ Massey’s decisions, the Coast Guard
              appealed 7 of her decisions and the Commandant overturned 3 of
              them. These numbers do not include the USCG v. McDonald
              matter that the Coast Guard planned to appeal, but later withdrew
              its appeal when ALJ Massey realized her error of law and
              voluntarily agreed to vacate her erroneous decision. Thus,
              including the McDonald matter, the Coast Guard appealed two-
              thirds of ALJ Massey’s cases; one-third of her cases were either
              overturned or contained an error of law. Moreover, the


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 27

               disagreement between ALJ Massey and the investigating officers
               over the correct interpretation of the Coast Guard’s discovery
               regulations that underlie many of these appeals and errors of law
               were escalating over time.

               According to ALJ program senior staff, the ALJ program was
               compelled to intervene and try to stop ALJ Massey from ruling in
               contravention of Coast Guard regulations because of the length of
               time it would take the appellate process to correct her rulings. The
               disagreements between ALJ Massey and the Coast Guard’s
               investigative officers over her refusal to follow Coast Guard
               regulations were such that they believed she was jeopardizing S&R
               proceedings. The Chief ALJ and his senior staff assert that as a
               result of these concerns the Chief ALJ tried to guide ALJ Massey
               to rule according to the law via the March 7, 2005, discovery
               memorandum and then later via the April 8, 2005, meeting.

               Given the Chief ALJ’s role as the head of the ALJ program and his
               duty to train new ALJs, it is logical that he would provide guidance
               to a new ALJ who was ruling in contravention of the law. The
               March 7, 2005, discovery memorandum does not contain any
               language the could be reasonably be construed as directing the
               outcome of S&R proceedings or requiring ALJs to rule in favor of
               a particular party. Although the parties’ notes and the statements
               of various witnesses do establish that the Chief ALJ offered ALJ
               Massey guidance on the discovery regulations and instructed her to
               follow the regulations, there is no evidence other than ALJ
               Massey’s statements two years later that he told her to always rule
               in favor of the Coast Guard. In sum, while we could not
               substantiate ALJ Massey’s statements, we could corroborate many
               of the Chief ALJ’s statements.

ALJ Massey’s Conduct Undermined the Gravity of the
Allegations
               The timing and manner in which ALJ Massey made her allegations
               also undermined the gravity of the allegations. On March 13,
               2007, ALJ Massey first made her allegations in a sworn statement
               filed in a civil action in support of a mariner challenging the
               USCG’s decision to suspend his credentials and requesting
               $5,000,000 in compensatory damages and $10,000,000 in punitive
               damages, jointly and severally, from the Chief ALJ, ALJ
               Brudzinski, and two docketing center employees, including a
               former law clerk. The filing took place nearly two years after her



 Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                      Page 28

              April 8, 2005, meeting with the Chief ALJ and only two weeks
              after her official retirement from the Coast Guard. In her written
              testimony for the July 31, 2007, hearing before the U.S. House of
              Representative’s Transportation and Infrastructure Committee’s
              Subcommittee on the Coast Guard and Maritime Transportation,
              ALJ Massey made the following statement:

                       “Between July 2004 and August 2005, I came to
                       know first hand that the administration of due
                       process in S&R hearings at the Coast Guard was not
                       a priority and NEVER (emphasis in original) to be
                       a concern if its preservation would result in a ruling
                       adverse to a position of the Coast Guard. In thirty
                       years of experience, I have not come close to
                       experiencing the level of arrogance and disrespect
                       for due process that I experienced at the Coast
                       Guard in the administration of its hearings. From
                       Judge Ingolia all the way down to the newest IO
                       [investigating officer], the environment was
                       saturated with a total disregard for Mariner’s
                       rights.”

              ALJ Massey’s statement depicts a flawed judicial system that does
              not provide justice to mariners. Her written testimony, as
              expressed in the May 9, 2007, affidavit and in conjunction with the
              July 31, 2007, congressional hearing, is inconsistent with the fact
              that she would allow the program to continue for over two years
              without notifying the appropriate authorities. ALJ Massey did not
              report her allegations to the Office of Inspector General, Special
              Counsel, the MSPB or the Commandant—all of whom have the
              authority to investigate, remediate, or take action regarding any
              alleged agency misconduct. Instead, she disclosed her allegations
              in the context of a multimillion dollar lawsuit against the Coast
              Guard filed by Mr. Morgan, a private attorney who had represented
              mariners in S&R proceedings before her. When asked why she
              chose to make her allegations public through Mr. Morgan, ALJ
              Massey stated that she initially had no intention of mentioning her
              concerns at all. She said she signed the affidavit for Mr. Morgan
              simply because Mr. Morgan asked her to sign it.

              The Coast Guard used the ABA’s 1990 Model Code as a guide for
              ALJs during ALJ Massey’s tenure as a Coast Guard ALJ, and it
              provides standards of ethical conduct for judges, including
              standards for when judicial misconduct, i.e., a violation of the
              Model Code, should be reported to an appropriate authority. The


Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 29

                         Model Code makes clear that judges “shall uphold the integrity and
                         independence of the judiciary.” 17 Further, a judge “shall not allow
                         family, social, political or other relationships to influence the
                         judge's judicial conduct or judgment.” 18 In addition, the Model
                         Code requires any judge “who receives information indicating a
                         substantial likelihood that another judge has committed a violation
                         of this Code should take appropriate action,” including but not
                         limited to direct communication with the judge who has committed
                         the violation and reporting the violation to the appropriate
                         authority. 19 When a judge receives actual knowledge of a
                         violation of the Model Code, the judge is obligated to report the
                         knowledge to the appropriate authority. 20

                         According to ALJ Massey’s affidavit, on December 9, 2004, she
                         prepared a memorandum based on what ALJ Brudzinski said
                         during lunch on December 7, 2004. In her affidavit, she stated that
                         she prepared the memo because ALJ Brudzinski’s alleged remarks
                         were such that she “knew” that ALJ Brudzinski was not an
                         independent fact finder and that she worked under “a Chief Judge
                         who would dare tell an ALJ how to rule in a case.” If true, these
                         statements show that in December 2004 ALJ Massey believed that
                         both the Chief ALJ and ALJ Brudzinski had committed judicial
                         misconduct and violated the Model Code. ALJ Massey should
                         have reported the matter to an appropriate authority.

                         Although she did not report her allegations to an appropriate
                         authority, ALJ Massey was not completely silent regarding the
                         problems she felt existed within the Coast Guard ALJ program.
                         She expressed her displeasure with some of Chief ALJ Ingolia’s
                         actions in a series of memoranda she addressed to him. For
                         instance, in a memorandum dated March 31, 2005, she wrote, “The
                         timing of the [March 7, 2005 discovery] memorandum felt like an
                         attempt to invade the domain of my judicial independence with
                         respect to three proceedings where serious discovery issues
                         were/are under consideration on the date of its issuance.” ALJ
                         Massey followed up on April 4, 2005, with another memorandum
                         in which she reiterated her feeling that the timing of the March 7,
                         2005, Discovery Memorandum was an attempt to further invade
                         the domain of her judicial independence and stated, “a reasonable
                         mind could and I believe would see the ‘guideline’ memorandum

17
   Model Code, Canon 1 (1990). 

18
   Model Code, Canon 2(B).. 

19
   Model Code, Canon 3(D)(1) and Comment to 3(D). 

20
   Model Code, Canon 3(D)(1)(1990). 




           Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                                Page 30

              as your office’s attempt to pressure me into ruling a certain way in
              the three cases at issue.” ALJ Massey’s statements in these
              memoranda show that she felt she was being pressured to rule a
              certain way on discovery issues in 2005. However, her statements
              do not contain the specificity nor do they reflect the gravity of the
              allegations she made in her March 2007 affidavit.

              ALJ Massey was aware of an attorney’s general obligation to
              report a violation. She stated to us, “I mean every lawyer, at least
              the oath I took in the State of Texas is that if you are aware of
              another attorney violating the law, then you are under an
              affirmative obligation to report that.” We questioned ALJ Massey
              specifically about ALJ Brudzinski’s comment at the December
              2004 lunch and about an ALJ program attorney who worked with
              ALJ Brudzinski. ALJ Massey stated, “To the extent that she knew
              that Judge Brudzinski was going to rule a certain way because he’d
              been told to by Judge Ingolia, that means she was aware of a
              violation of law, and, as an attorney, she had a duty to report that,
              okay, just as a licensed attorney.” In addition, ALJ Massey
              mentioned that to the extent this attorney had not yet revealed the
              information, this attorney retained an obligation to report the
              information and said, “I mean, to this day, technically speaking, as
              an officer of the court, if she knew, she would have an obligation
              to tell somebody.”

              ALJ Massey’s statements reveal that she was aware of outlets to
              report ALJ Brudzinski and Chief ALJ Ingolia and that she
              understood the affirmative obligation to report such concerns. She
              acknowledged to us that she considered reporting her complaint to
              the Office of Special Counsel and noted that she probably could
              have spoken to one of the ALJ program staff attorneys who
              attended the lunch with her on December 7, 2004. She also noted
              that she tried to figure out if she could go directly to the MSPB
              with her complaint. We asked ALJ Massey whether she
              considered reporting her complaint to the Office of Inspector
              General or a State Bar organization, and she stated that she thought
              about those options. However, she did not report her concerns to
              anyone prior to giving her affidavit to Mr. Morgan. She told us
              that she felt like it was a fight she could not win because ALJ
              Brudzinski could deny he said it and the other people at the table
              could say that they did not remember. However, ALJ Massey’s
              concern over her ability to prove the validity of her allegations
              does not diminish her obligation to report her concerns.




Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 31

              ALJ Massey’s statements about her own obligations further
              contradict what she outlined to us as an obligation for any attorney
              and specifically for the ALJ program attorney that attended the
              December 7, 2004, lunch. ALJ Massey told us that she felt she had
              no reason to report ALJ Brudzinski’s alleged statement. She
              commented that it was “not [her] problem” and that she “had no
              dog in that fight.” She also said she did not see the need to get in
              the middle of what she thought was ALJ Brudzinski being used by
              Chief ALJ Ingolia. ALJ Massey told us that she took the situation
              only as a warning to be watchful of the environment and said, “It
              was wrong and I knew it, but I was taking that information in for
              my own purposes and evaluating what that told me about the
              environment that I was working in and which, in fact, got a lot
              worse right after that.” Describing the situation, she said, “That’s a
              serious charge to bring against somebody, you know. To me, it’s
              serious.” She went on to state, “It wasn’t like you’re trying to stop
              someone from getting shot or something and you have like a civic
              duty.”




Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 32

Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                     Page 33

Appendix A
Purpose, Scope, and Methodology

                      We undertook this review at the request of the Vice Commandant,
                      Coast Guard to assess the validity of allegations of bias in the
                      Coast Guard ALJ program, particularly in connection with the
                      adjudication of cases involving the suspension and revocation of
                      merchant mariner documents and licenses. The Vice
                      Commandant’s request, made at the urging of the Coast Guard’s
                      Chief ALJ and all other active Coast Guard ALJ’s, stemmed from
                      allegations of bias made by former Coast Guard ALJ Jeffie J.
                      Massey. These allegations, contained in an affidavit submitted by
                      the former ALJ, were submitted in two lawsuits filed against the
                      Chief ALJ, another ALJ, and other career employees of the Coast
                      Guard ALJ program.

                      Our goal was to determine whether the allegations were
                      meritorious. In particular, we sought to determine whether the
                      Chief ALJ (1) directed subordinate judges to rule in favor to the
                      Coast Guard, and (2) discussed desired outcomes in specific cases
                      in ex parte communications with other ALJs and other employees.

                      We interviewed ALJ program personnel who were employed with
                      the program during ALJ Massey’s tenure at the Coast Guard. We
                      interviewed ALJ Massey, on multiple occasions, both in our office
                      and via telephone, the Chief ALJ, ALJ Brudzinski, and the former
                      Director of Judicial Administration, and certain current and former
                      docketing center employees and senior staff. We also interviewed
                      all current and former ALJs during the operative time period with
                      the exception of one ALJ who passed away shortly after we
                      initiated this review.

                      We interviewed Coast Guard personnel who appeared before ALJ
                      Massey and others who provided support or oversight, including a
                      number of investigating officers in District 8, supervisory
                      investigating officers, and Coast Guard attorneys, both at District 8
                      and at Coast Guard headquarters in Washington, DC. We also
                      interviewed those who worked on the CDOAs for decisions of ALJ
                      Massey that were appealed. In addition, we contacted
                      representatives of the mariner community, including legal
                      practitioners and members of mariner’s advocacy groups.

                      We reviewed S&R decisions issued by ALJ Massey and
                      underlying transcripts or recordings where available; related
                      CDOAs; the transcript of the July 31, 2007, Congressional hearing
                      and related materials; and correspondence between the Chief ALJ



        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 34

Appendix A
Purpose, Scope, and Methodology

                      and ALJ Massey, and with the docketing center, during the
                      operative time frame, as well as other materials provided to us by
                      ALJ Massey, by the docketing center, and others. We also
                      reviewed other reference and legal materials.

                      We did not undertake a wholesale evaluation of the S&R program.
                      In addition, we did not evaluate (1) whether the ALJ program
                      should be moved to the NTSB or otherwise removed from the
                      Coast Guard; and (2) how the Coast Guard allocates resources and,
                      in particular, whether it should assign attorneys to represent the
                      Coast Guard in all suspension and revocation proceedings.
                      However, information that we gathered during this review served
                      as the basis for a companion report entitled, Recommendations to
                      Improve the Coast Guard’s System for Adjudicating Suspension
                      and Revocation Matters (OIG-10-107). In that report, we make
                      recommendations to improve the effectiveness of the Coast
                      Guard’s suspension and revocation adjudication process.

                      We performed fieldwork from January 2009 through December
                      2009 at the Coast Guard docketing center in Baltimore, MD and at
                      Coast Guard headquarters in Washington, DC.

                      Our review was conducted under the authority of the Inspector
                      General Act of 1978, as amended, and according to the Quality
                      Standards for Inspections issued by the President’s Council on
                      Integrity and Efficiency




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 35

Appendix B
Management Comments to the Draft Report

             The Coast Guard declined to submit formal comments in response to our
             draft report.




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 36

Appendix C
Chronology of Relevant Events

                      The key events surrounding ALJ Massey’s allegations of
                      misconduct within the ALJ program occurred over a period of
                      about 18 months, starting with ALJ Massey's interview for the
                      Coast Guard ALJ position in February 2004 and ending with
                      Hurricane Katrina in August 2005. In her affidavit in Dresser v.
                      Ingolia, ALJ Massey cites several events that took place during her
                      tenure as a Coast Guard ALJ to support her allegations.

                      It is difficult to evaluate the significance of those events and
                      whether they provide sufficient and credible support for her
                      allegations without placing them within the larger context of
                      related events that happened within the ALJ program and during
                      ALJ Massey’s employment with the Coast Guard. We reference
                      events from the following chronology throughout our report:

                      December 15, 2003
                      The Chief ALJ assigned USCG v. Dresser, a case on remand from
                      the NTSB, to ALJ Brudzinski. Although the case arose out of
                      Sector New Orleans, the New Orleans ALJ position was vacant at
                      the time of the remand. Jeffie J. Massey would not join the Coast
                      Guard for another seven months, but later alleged that the Chief
                      ALJ should have assigned the case to her.

                      February 2004
                      Jeffie J. Massey applied for the Coast Guard ALJ position located
                      in New Orleans, LA. Prior to submitting her application for this
                      position, ALJ Massey worked for more than six years as an ALJ,
                      first with the Social Security Administration and then with the
                      Federal Energy Regulatory Commission (FERC).

                      June 2004
                      As part of the interview process, Jeffie J. Massey met Chief ALJ
                      Ingolia at his Washington, DC office. When she arrived, Chief
                      ALJ Ingolia was on the phone. According to her, Chief ALJ
                      Ingolia told her that he was talking with ALJ Brudzinski.
                      Additionally, she alleged that Chief ALJ Ingolia told her that from
                      time to time, he and ALJ Brudzinski talk about active cases that
                      ALJ Brudzinski is handling.

                      June 2004
                      The Coast Guard extended a job offer. Prior to officially joining
                      the Coast Guard, ALJ Massey attended the annual Coast Guard
                      ALJ Conference in Baltimore, MD.



        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 37

Appendix C
Chronology of Relevant Events

                      On or about July 11, 2004
                      The Coast Guard hired ALJ Massey, and she began working in
                      New Orleans, LA. The New Orleans ALJ presides over S&R
                      hearings that arise out of the Coast Guard’s District 8, which is
                      headquartered in New Orleans. Within the New Orleans ALJ’s
                      geographic area of responsibility lies the Marine Safety Unit
                      (MSU) located in Morgan City, LA. The Morgan City MSU
                      generated the majority of ALJ Massey’s contested S&R cases.

                      October 6, 2004
                      Shortly after she began hearing Coast Guard cases, ALJ Massey
                      issued an order in USCG v. McDonald that erroneously dismissed
                      the Coast Guard’s complaint on the grounds that it was deficient as
                      a matter of law. The Coast Guard planned to file an appeal, but the
                      ALJ program convinced it not to do so because ALJ Massey
                      corrected her ruling.

                      October 22, 2004
                      ALJ Massey sent an email message to the ALJ program’s Director
                      of Judicial Administration in which she admitted her error in the
                      McDonald matter and asked for assistance in understanding the
                      law in her pending cases. Specifically, she asked that someone
                      from the Chief ALJ’s office be assigned “to review the
                      complaint/answer in each case, and prepare a short memo of law
                      about the elements of the government’s case, any defenses the
                      Respondent has raised, and refer [her] to any significant authorities
                      [she] should be aware of in a particular case.”

                      December 2004
                      As early as December 2, 2004, the S&R program officials at Coast
                      Guard headquarters began forwarding complaints that they
                      received about ALJ Massey to the Chief ALJ’s office for further
                      investigation. These complaints included allegations that ALJ
                      Massey had an unprofessional demeanor and subjected Coast
                      Guard investigating officers to “belittling attacks.”

                      December 7, 2004
                      During a break in the USCG v. Dresser hearing that ALJ Massey
                      observed in New Orleans, ALJ Massey attended lunch with ALJ
                      Brudzinski and two attorneys from the docketing center. In her
                      affidavit in Dresser v. Ingolia, ALJ Massey states that during the
                      lunch, ALJ Brudzinski discussed the testimony the respondent,
                      represented by J. Mac Morgan, presented that morning. According



        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 38

Appendix C
Chronology of Relevant Events

                      to ALJ Massey, ALJ Brudzinski said that although he found the
                      testimony compelling, if he ruled for Mr. Dresser, the Chief ALJ
                      would have his job. No other attendee at the lunch recalled ALJ
                      Brudzinski making that statement.

                      December, 13, 2004
                      ALJ Massey reopened USCG v. McDonald to correct her
                      previously-issued ruling (see October 6, 2004)

                      In late 2004 or early 2005
                      Shortly after ALJ Massey’s December 7, 2004, lunch with ALJ
                      Brudzinski, J. Mac Morgan, respondent’s counsel in both the
                      Dresser matter, then pending before ALJ Brudzinski, and USCG v.
                      Elsik, then pending before ALJ Massey, visited ALJ Massey at her
                      office to file a pleading. ALJ Massey and Mr. Morgan had a 15
                      minute conversation in her office during which Mr. Morgan
                      discussed the Dresser matter. ALJ Massey witnessed Mr.
                      Morgan’s representation of the respondent in this matter on
                      December 7, 2004. During this conversation, Mr. Morgan also
                      shared with ALJ Massey his allegation that the Coast Guard ALJ
                      program was biased against Mr. Dresser. Mr. Morgan also
                      referred ALJ Massey to a former Coast Guard ALJ who was
                      critical of the ALJ program and who also testified at the July 2007
                      congressional hearing.

                      January 6, 2005
                      In USCG v. Elsik, ALJ Massey granted the Motion for
                      Interrogatories by respondent’s counsel, Mr. Morgan, in
                      contravention of Coast Guard regulations and 33 CFR 20.601(d),
                      which required certain showings to be made before the discovery
                      motion could be granted, and 33 C.F.R. 20.309(d), which gave the
                      Coast Guard the right to respond to the motion before it was
                      granted. In addition, ALJ Massey did not follow 33 CFR
                      20.603(e) because she gave the Coast Guard 15 days to respond to
                      the interrogatories rather than the 30 days provided by this
                      regulation.

                      January 12, 2005
                      In USCG v. Rogers, ALJ Massey granted respondent’s request for
                      a subpoena in contravention of 33 CFR 20.608(a), 33 CFR
                      20.601(d) and 33 CFR 309(d). Specifically, ALJ Massey granted
                      the respondent’s request for a subpoena (1) without requiring the
                      respondent to make a formal motion, (2) without making the



        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 39

Appendix C
Chronology of Relevant Events

                      necessary determination of fact, and (3) within 24 hours of
                      receiving the request, which prevented the Coast Guard from
                      having an opportunity to respond—all of which were in
                      contravention of the Coast Guard’s discovery regulations.

                      February 3, 2005
                      In USCG v. Rogers, the Coast Guard refused to comply with the
                      subpoena, arguing that it should not have to do so because ALJ
                      Massey granted the subpoena improperly and in contravention of
                      the Coast Guard’s discovery regulations.

                      February, 24, 2005
                      Members of the ALJ program’s senior staff met with Coast Guard
                      S&R program representatives, including headquarters staff and
                      district-level attorneys and investigating officers, to discuss the
                      complaints about ALJ Massey’s conduct. The S&R program staff
                      also invited an attorney from the Coast Guard’s Office of Maritime
                      and International Law. ALJ Massey was aware of the complaints
                      and was invited to the meeting by an ALJ program attorney, but
                      she declined. Chief ALJ Ingolia did not attend the meeting. The
                      ALJ program prohibited meeting participants from mentioning
                      case names and prevented ALJ program staff involved in any of
                      ALJ Massey’s pending matters from participating in the meeting.

                      February 28, 2005
                      A member of the ALJ program staff briefed ALJ Massey on the
                      February 24, 2005, meeting. During their conversation, ALJ
                      Massey determined that the investigating officers had discussed
                      issues in cases that were still pending before her and she stated she
                      abruptly terminated the conversation.

                      March 7, 2005
                      Pursuant to the advice of the ALJ program’s senior staff, Chief
                      ALJ Ingolia issued a memorandum titled, “Guidelines for
                      Discovery Requests” (the “March 7, 2005, discovery
                      memorandum”) to all Coast Guard ALJs. According to ALJ
                      program senior staff, one of the purposes of the memorandum was
                      to correct ALJ Massey’s and the District 8 investigating officers’
                      misinterpretations and misapplications of the Coast Guard’s
                      discovery regulations.




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 40

Appendix C
Chronology of Relevant Events

                      March 15-17, 2005
                      ALJ Massey exchanged email messages with the ALJ program’s
                      senior staff attorney who was responsible for providing the Coast
                      Guard ALJs with legal research, assistance and advice. ALJ
                      Massey asked whether the Chief ALJ and the Director of Judicial
                      Administration were directing the content of the legal advice ALJ
                      Massey would be receiving. The senior attorney explained that the
                      Chief ALJ was not involved in the provision of legal research to
                      ALJs and that it was the individual ALJ’s decision whether to
                      solicit or be guided by the staff attorney’s advice.

                      March 21, 2005
                      ALJ Massey received a legal research memorandum from an ALJ
                      program legal intern regarding a legal issue in the Elsik matter. In
                      the memorandum, the intern explained that dismissing the
                      misconduct allegations in the matter would be improper and in
                      contravention of well-settled Coast Guard law.

                      March 22, 2005
                      In USCG v. Elsik, ALJ Massey stated in a pre-hearing conference
                      that she disagreed with binding Coast Guard precedent. Instead of
                      following Coast Guard precedent, and in violation of 46 CFR 5.65,
                      she relied on an opinion from the Ninth Circuit Court of Appeals.
                      The Commandant would later reverse her decision on appeal.

                      March 24, 2005
                      ALJ Massey received a memo from an ALJ program staff attorney
                      regarding an issue in the Rogers matter. In the memorandum, the
                      staff attorney advised that dismissal of the Rogers matter with
                      prejudice was an inappropriate sanction for the Coast Guard’s
                      refusal to comply with the subpoena. However, the attorney
                      advised that sanctions against the Coast Guard were warranted and
                      referred ALJ Massey to the sanction authorized by 33 CFR §
                      20.607(a).

                      March 25, 2005
                      ALJ Massey rejected the ALJ program staff attorney’s advice and
                      dismissed the Rogers matter with prejudice as a sanction for the
                      Coast Guard’s failure to comply with a subpoena ordered by the
                      respondent and issued by ALJ Massey. On appeal, the Vice
                      Commandant reversed ALJ Massey’s decision and held that she
                      abused her discretion and exceeded her authority as an ALJ by




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 41

Appendix C
Chronology of Relevant Events

                      dismissing the case with prejudice on the basis of the Coast
                      Guard’s discovery violations.

                      March 28, 2005
                      The Director of Judicial Administration contacted ALJ Massey on
                      the Chief ALJ’s behalf and arranged for ALJ Massey to meet the
                      Chief ALJ in Baltimore, MD.

                      March 31, 2005 and April 4, 2005
                      ALJ Massey sent memoranda to Chief ALJ Ingolia stating that the
                      March 7, 2005 Discovery Memorandum improperly infringed upon
                      her judicial independence and was an attempt to pressure her into
                      ruling in a certain way. In addition, in the March 31, 2005,
                      memorandum, ALJ Massey stated that the Chief ALJ’s March 7,
                      2005, Discovery Memorandum contained “flawed and/or puerile
                      reasoning.”

                      April 6, 2005
                      In USCG v. Elsik, ALJ Massey dismissed the Coast Guard’s
                      complaint with prejudice. Specifically, she relied on a Ninth
                      Circuit decision, which was not binding precedent in this matter, to
                      dismiss the Coast Guard’s misconduct allegations in contravention
                      of well-settled Coast Guard law. She also dismissed the remaining
                      negligence allegation as a sanction for the Coast Guard’s failure to
                      comply with her discovery orders. On appeal, the Vice
                      Commandant reversed ALJ Massey, holding that she
                      (1) committed an error of law when she dismissed the misconduct
                      allegations in contravention of the plain-language of the statute;
                      (2) abused her discretion and committed an error of law when she
                      dismissed the negligence allegation for a discovery violation; and
                      (3) acted arbitrarily and capriciously by failing to follow the
                      applicable discovery rules.

                      April 8, 2005
                      ALJ Massey met with Chief ALJ Ingolia and three members of his
                      staff. Eventually, all but one of the staff members was asked to
                      leave so that the Chief ALJ could have a more private conversation
                      with ALJ Massey. Chief ALJ Ingolia told ALJ Massey that she
                      was the cause of the problems in District 8. According to ALJ
                      Massey, it was during this meeting that the Chief ALJ told her to
                      always rule in favor of the Coast Guard. According to the Chief
                      ALJ and the senior staff member present, the Chief ALJ did not
                      say anything that could reasonably be construed as directing ALJ



        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 42

Appendix C
Chronology of Relevant Events

                      Massey to rule in favor of the Coast Guard. Instead, they assert
                      that the Chief ALJ only instructed her to follow Coast Guard’s
                      regulations.

                      May 31, 2005
                      As a follow-up to the April 8, 2005, meeting, ALJ Massey sent
                      Chief ALJ Ingolia a memorandum that stated her belief that the
                      senior investigating officers’ complaints about her conduct and
                      demeanor were without merit. She asserted that the complaints
                      were personal attacks on her because of her adverse rulings and
                      because of her gender. ALJ Massey requested that an independent
                      investigation take place in order to clear her personal and
                      professional reputation.

                      Early summer 2005




                      On or about July 21, 2005
                      ALJ Massey called the former ALJ to whom she had been referred
                      by Mr. Morgan. She discussed the assignment of the Dresser
                      matter with this ALJ, erroneously stating that Chief ALJ assigned
                      the Dresser matter to ALJ Brudzinski after ALJ Massey had been
                      hired by the Coast Guard. In fact, the Chief ALJ assigned Dresser
                      to ALJ Brudzinski in December 2003.

                      August 26, 2005
                      ALJ Massey presided over a hearing in USCG v. Boudreaux. In
                      that hearing, the Coast Guard rested its case without calling any
                      witnesses, as it had failed in its attempt to get ALJ Massey to
                      reconsider her previous denial of its motion to have certain
                      witnesses participate by telephone. In response, the respondent
                      moved to dismiss the Coast Guard’s complaint. ALJ Massey
                      granted the respondent’s motion from the bench and dismissed the
                      complaint with prejudice based on the Coast Guard’s failure to
                      present any evidence and thereby prove the facts in its complaint.




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 43

Appendix C
Chronology of Relevant Events

                      August 28, 2005
                      Hurricane Katrina hit New Orleans, LA. The storm significantly
                      interrupted Coast Guard operations in District 8. ALJ Massey did
                      not preside over any S&R hearings or receive any new cases from
                      August 2005 to her retirement in March 2007.

                      November 29, 2005
                      ALJ Massey issued the written decision in USCG v. Boudreaux. In
                      her decision and order, just as in her May 31, 2005, memorandum,
                      she accused the Coast Guard and a certain senior investigating
                      officer of “demonizing” her by making false statements about her
                      judicial demeanor.

                      December 14, 2005




                      January 29, 2006


                      March 16, 2006




                      June 2006


                      July 2006
                                                                              ALJ
                      Massey followed up with Mr. Morgan after he attempted to contact
                      her. She tentatively agreed to meet with him
                                                                   Otherwise, she
                      intended to continue to work as a Coast Guard ALJ.




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 44

Appendix C
Chronology of Relevant Events

                      July 2006-March 2007
                      ALJ Massey engaged in monthly phone conversations with Mr.
                      Morgan, who ALJ Massey said was inquiring about the status of
                      her retirement request.

                      March 3, 2007
                                                                                     ALJ Massey
                      retired from the Coast Guard.

                      March 13, 2007
                      ALJ Massey provided testimony to Mr. Morgan. Two weeks later,
                      Mr. Morgan filed the Dresser v. Ingolia complaint against the
                      Commandant, Chief ALJ Ingolia, and various Coast Guard and
                      ALJ program employees. The allegations in the complaint are
                      based largely on ALJ Massey’s testimony.

                      May 9, 2007
                      ALJ Massey signed an affidavit in the Dresser v. Ingolia matter
                      based on her March 13, 2007, testimony. In the affidavit, ALJ
                      Massey alleged that the Coast Guard’s ALJ program is biased
                      against mariners and the Chief ALJ told her to always rule in favor
                      of the Coast Guard.

                      June 24 2007
                      The Baltimore Sun used ALJ Massey’s affidavit and the Dresser v.
                      Ingolia lawsuit as the basis for the first in a series of articles that
                      questioned the integrity of the Coast Guard administrative law
                      program.

                      July 31, 2007
                      Following the Sun article, the U.S. House of Representatives’
                      Transportation and Infrastructure Committee’s Sub-committee on
                      Coast Guard and Maritime Transportation held a hearing regarding
                      allegations of bias in the Coast Guard administrative law program.
                      ALJ Massey testified at this hearing regarding her affidavit and
                      allegations, as did a former Coast Guard ALJ to whom Mr.
                      Morgan had referred to her.




        Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                             Page 45

Appendix D




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 46

Appendix D




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 47

Appendix D




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 48

Appendix D




             Page 49

Appendix D




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 50

Appendix D




       Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                            Page 51

Appendix E
Major Contributors to this Report


                       William J. McCarron, Chief Inspector
                       Kimberley Cox, Inspector
                       Christian Patton, Inspector

                       Richard Reback, Counsel to the Inspector General
                       René Rocque Lee, Assistant Counsel
                       Adam Berlin, Assistant Counsel




         Allegations of Misconduct within the Coast Guard Administrative Law Judge Program


                                              Page 52

Appendix F
Report Distribution



                       Department of Homeland Security
                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Chief Information Officer
                       Chief Information Security Officer
                       Coast Guard Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




         Allegations of Misconduct within the Coast Guard Administrative Law Judge Program

                                             Page 53
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
